APP

31

APPENDIX NO. 2: CA SUPREME COURT’S
ORDER DENYING REVIEW FILED ON 8/14/2019
S256743
IN THE SUPREME COURT OF CALIFORNIA
EN BANC
LINDA SHAO, Plaintiff and Appellant
v.
Tsan-Kuen Wang, Defendant and Respondent
Court of Appeal, Sixth Appellate District No.
H040977
August 14, 2019
The request for judicial notice is denied.
petition for review is denied.
CANTIL-SAKAUYE
Chief Justice

The

APP

32

APPENDIX NO. 3: REHEARING DENIED BY CA
SIXTH DISTRICT APPELLATE COURT ON
6/25/2019
Court of Appeal, Sixth Appellate District
Susan S. Miller, Clerk/Executive Officer
Electronically filed by M. Chang, Deputy Clerk
In re the Marriage of LINDA YI TAI SHAO and
TSAN-KUEN WONG.
LINDA YI TAI SHAO,
Appellant,
v.
TSAN-KUEN WANG,
Respondent.
H040977
Santa Clara County Super. Ct. No. FL126882
BY THE COURT*Appellant's petition for rehearing and
“suggestion” for en-banc is denied.
Date: June 25, 2019 Mihara (signed) Acting P.J.
*Before Mihara, Acting P.J., Danner, J. and Duffy, J.**
**Retired Associate Justice of the Court of Appeal,
Sixth Appellate District, assigned by the Chief Justice
pursuant to article VI, section 6 of the California
Constitution.

APP

60

APPENDIX NO.7 H040977
OPINION/JUDGMENT OF JUNE 4, 2019.
Filed 6/4/19
NOT TO BE PUBLISHED IN OFFICIAL
REPORTS
IN THE COURT OF APPEAL OF THE STATE
OF CALIFORNIA
SIXTH APPELLATE DISTRICT
In re Marriage of LINDA YLTAI SHAO
and TSAN-KUEN WANG.
H040977
(Santa Clara County
Super. Ct. No. 1-05-FL126882)
LINDA YLTAI SHAO,
Appellant,
v.
TSAN-KUEN WANG,
Respondent.
Representing herself, Linda YrTai Shao (wife)
appeals a post-judgment order issued by the trial
court in this marital dissolution action following
the remittitur from a prior appeal decided by this
court. The post-judgment order directs Shao to pay
respondent Tsan-Kuen Wang (husband) for her
share of child-related expenses that husband
incurred in 2008 and 2009. Shao contends the

APP

61

post-judgmerit order lacks evidentiary support and
violates our prior decision. More generally, Shao
argues due process violations and bias by both the
trial court and this court. For reasons explained
below, we reject Shao’s contentions and affirm the
order.

I. FACTS AND PROCEDURAL BACKGROUND
Shao and Wang married and had two children, a
son and a daughter. In 2008, they entered into a
judicially-supervised settlement agreement (2008
agreement) that was later incorporated into the
judgment of dissolution filed in May 2008. The 2008
agreement covered a variety of issues relating to the
dissolution, including custody of the two minor
children (the son has since become an adult) and
child support.
The 2008 agreement has been subject to significant
litigation between Shao and Wang, including a
number of appeals in which Shao has challenged
trial court orders and actions. Our prior appeals
detail this litigation.1 To resolve Shao’s current
Our last opinion includes a history of prior
appeals in this matter. {In re Marriage ofShao and
Wang(M.aec. 9, 2018, H043851) [nonpub. opn.].)
Although Shao was designated a vexatious litigant
in 2015 by the Santa Clara County Superior Court

APP

62

appeal we need discuss only our first opinion in this
matter, issued by this court in January 2012,
and the trial court’s subsequent actions following
the remittitur from that appeal, particularly the
trial court’s post-judgment order from March 2014.
A. 2012 Opinion
On January 27, 2012, this court filed an opinion
addressing numerous contentions made by Shao,
including that the trial court abused its discretion
in ordering Shao to reimburse Wang for her share of
medical and dental expenses, tuition, and
extracurricular activities that Wang incurred in
2008 and 2009 for their children. (In re Marriage of
Shao and Wang (Jan. 27, 2012, H035194) [nonpub.
opn.] (2012 opinion).)
As relevant to this appeal, in the 2012 opinion we
concluded that Shao and Wang had agreed in the
2008 settlement that “notwithstanding the support
obligations, each would pay half of those
unreimbursed expenses, the amount of which might
vary from year to year depending on the children’s
medical and dental needs.” (In re Marriage of

in case No. 1-12-CV-220571, that fact does not
affect our consideration of this appeal,
which was filed prior to that designation.

APP

63

Shao and Wang, supra, H035194.) We rejected
many of Shao’s arguments as to such unreimbursed
expenses, for instance that Wang was solely
responsible for many of these costs. However, with
respect to the trial court’s order that Shao pay
Wang $1,718.22 for medical and dental expenses he
had already paid for the period of May through
December 2008, we held that the trial court erred
because it relied on Wang’s declaration and a
conclusory spreadsheet rather than any
documentary evidence. We considered “it both
appropriate and fair to have the court redetermine
Shao’s share of the cost of past unreimbursed
expenses based on the same sort of evidence that
the court required Wang to provide Shao as
prerequisite to reimbursement for future
unreimbursed expenses.”
Similarly, regarding son’s extracurricular
activities, we also concluded that “there was no
documentary evidence to substantiate the expenses
or their payment,” and they “should be
redetermined based on documentary evidence.” {In
re Marriage of Shao and Wang, supra, H035194.)
Finally, with respect to the trial court’s order that
Shao pay Wang a portion of daughter’s daycare
tuition, we remanded the matter for a

APP

64

redetermination by the trial court of the total cost of
. the tuition paid by Wang.
B. Trial Court Proceedings and March 2014 Order
During the pendency of the first appeal, the parties
continued to litigate matters in the trial court. In
June 2011, during a hearing related to pending
discovery motions, Shao served papers seeking to
disqualify the trial judge on various grounds
including that the judge had a friendly relationship
with her prior counsel (against whom she had a
pending malpractice action) through a “club” that
involved “many judges of this county and attorneys”
to “promote justice and improve [the] judicial
system.” The trial court suspended proceedings in
response to Shao’s motion for disqualification. On
August 30, 2011, a neutral judge selected by the
Judicial Council denied Shao’s request for
disqualification of the trial judge.
Several months after the remittitur from
our 2012 opinion issued, Wang’s attorney filed
a case management conference questionnaire
regarding a “[Remitter [sid [hjearing [d]ate”
and a “[d]iscovery [o]rder.” At the case
management conference, SHAO appeared
representing herself; Wang’s counsel also
appeared. Wang’s counsel requested a hearing

APP

65

date to address the remittitur and pending
motions to compel discovery against Shao.
Shao raised a pending motion relating to
her challenge to the custody evaluator. The
trial court calendared a case management
conference to address Shao’s motion as well as
to set a hearing on the remittitur.
For reasons that are unclear from the
record, no further action related to the
remittitur appears to have occurred for some
time. On September 11, 2013, during a case
resolution conference, the trial court conducted
a “special hearing” on the matters
remanded to the trial court by our 2012 opinion.
The record on appeal does not contain a
reporter’s transcript of this hearing. At Shao’s
request, the hearing was continued to
December 16, 2013.
Prior to the December hearing, the parties
submitted various papers. On October 31, 2013,
Wang filed a declaration titled “Declaration of
Tsan-Kuen Wang Re-Specification of
Documents for the Remittitur.” (Some
capitalization omitted.) His
declaration attached receipts and supporting
documentation related to the children’s

APP

66

expenses.
On November 25, 2013, Shao filed a
document titled “Objection to Evidence
Contained in Declaration of Tsan-Kuen Wang
re Specifications Filed on ll/6/2013;Opposition
to Respondent’s Requsts [sid on Fee
Reimbursement.” Thereafter, on December 11,
2013, Shao filed a “Petitioner’s Supplemental
Request on Remittitur”
(capitalization omitted) in which she made
several requests, including that the hearing be
calendared for half a day.
On December 16, 2013, the trial court
conducted a hearing and addressed a variety of
pending issues between the parties, including
the remittitur. Shao appeared at the hearing
and represented herself. In terms of the
remittitur, Shao objected that many of the
attachments to the Wang declaration were
“illegible.” She acknowledged that she hadnot
asked Wang’s cpunsel for clearer copies. She
also sought a continuance based on payments
she asserted she had made for their son’s
private tutor, although she did not provide
opposing counsel with documentation of the
payments.-The trial court denied Shao’s motion

APP

67

to continue the hearing and ordered the .matter
submitted. Following the
hearing, although the trial court had not
granted either party leave to file any additional
papers, Shao filed a declaration stating, among
other claims, that certain pages attached to
Wang’s declaration were illegible.
On March 14, 2014, the trial court filed a
written decision (March 2014 order).2 On May
3, 2018, this court denied Shao’s motion to
reconsider without prejudice to filing a motion
to augment the record pursuant to California
Rules of Court, rule 8.155(a)(2).
The trial court ordered Shao to pay Wang
$710.15 for unreimbursed medical expenses
related to the children, $3,125 for daughter’s
daycare tuition, and $1,129.92 for son’s
extracurricular activities.

2 The clerk’s transcript for this appeal does not
contain the March 2014 order. On our own
motion, we order the record augmented with a
copy of this order, which was attached to the
civil case information statement Shao filed in
this court. (See Cal. Rules of Court, rule
8.155(a)(1)(A).)

APP

68

Shao timely appealed the trial court’s
March 2014 order.
C. Procedural History of this Appeal
Before turning to the merits, we address
procedural matters that occurred subsequent to
Shao’s filing of her notice of appeal, as she
claims this court committed errors in the
processing of this appeal. In 2016, this court
dismissed but later reinstated
Shao’s appeal. At her request, this court also
granted Shao’s request for relief from default
based on issues related to the preparation of
the record. Ultimately, the record was not filed
until 2017.
This court granted Shao multiple extensions of
time to file her opening brief. On April 20, 2018,
this court denied a further request by Shao for
an extension of time. Shao filed a motion to
reconsider our denial.
On May 8, 2018, Shao filed a “Motion to
Augment the records pursuant to Rule
8.155(b)(2).” Although she sought to augment
the record with three trial court documents,
Shao did not attach any documents to her
motion. On May 11, 2018, we

APP

69

issued an order denying her request to
augment.
In addition, on June 6, 2018, Shao filed a
“Motion for Judicial Notice In Support of
Appellant’s Opening Brief,” (some
capitalization omitted) which we deferred for
further consideration with this opinion and
which we discuss further below. Father has not
filed any brief in opposition or made any
appearance in this appeal.
II. DISCUSSION
Shao asks us to reverse the trial court’s March
2014 order that addressed the issues remanded
to the trial court by our 2012 opinion and
subsequent remittitur. As described above, in
the 2012 appeal we reversed one of the trial
court’s post-judgment orders and ordered the
trial court to “redetermine the amount that
Wang owes Shao as additional
bonus support and the amounts Shao owes
Wang for her share of the children’s
unreimbursed medical and dental expenses,
[daughter’s] tuition at [daughter’s school], and
[son’s] extracurricular activities.” {In re
Marriage ofShao and Wang, supra, H035194.)
Following this directive, the trial court’s 2014

APP

70

order required Shao to reimburse Wang for her
share of certain child-related expenses he
incurred during 2008 and 2009.3
We first address Shao’s claim that the
March 2014 order lacks evidentiary support
and violates our 2012 opinion.4 We then

3 Shao does not appeal the trial court’s order
addressing the amount Wang owed Shao with
respect to Wang’s bonus.
4 The March 2014 order also addressed two
outstanding discovery motions filed by Wang
against Shao that had been pending since 2010
but which are not relevant to the instant
appeal. Shao’s notice of appeal states that
while the trial court “properly denied
Respondent’s two discovery motions,” it “failed
to issue monetary sanctions against
Respondent for the attorneys fees and costs
expended by Petitioner.” Her notice of appeal
also claims the trial court “has not released the
$10,000 undertaking” she posted in January
2010 related to another one of her appeals
(H035194). However, her brief does not address
these issues of sanctions or the alleged
undertaking, and Shao has thereby

APP

71

examine Shao’s claims of judicial bias and due
process violations.
A. Trial Court’s Determination of
Reimbursemen t
An order of the trial court is presumed to
be correct. (Denham v. Superior Court (1970) 2
Cal.3d 557, 564 {Denham)) “ ‘All intendments
and presumptions are indulged to support it on
matters as to which the record is silent, and
error must be
affirmatively shown. This is not only a general
principle of appellate practice but an ingredient
of the constitutional doctrine of reversible
error. {Ibid; see Cal. Const, art. VI, § 13.) An
appellant has the burden of establishing that
the lower court erred or abused its discretion.
{Denham, supra, at pp. 564, 566.) An appellant
must “[sjupport
any reference to a matter in the record by a
citation to the volume and page number of the
record where the matter appears.” (Cal. Rules
of Court, rule 8.204(a)(1)(C).) “ ‘The appellate
court is not required to search the record on its
3 5?

waived any claimed error by the trial court as
to them. (See, e.g., Ellenberger v. Espinosa
(1994) 30 Cal.App.4th 943, 948.)

APP

72

own seeking error.’ Thus, ‘[i]f a party fails to
support an argument with the necessary
citations to the record, . . . the argument [will
be] deemed to have been waived.’ ” (Nwosu v.
Uba (2004) 122 Cal.App.4th 1229, 1246
'(.Nwosu), citations omitted.) Further, “the party
asserting trial court error may not. . . rest on
the bare assertion of error but must present
argument and
legal authority on each point raised.” {Boyle v.
CertainTeed Corp. (2006) 137 Cal.App.4th 645,
649 {Boyle})
Shao argues that the trial court failed to
comply with the directives in our 2012 opinion
related to her obligations to reimburse Wang
for certain child-related expenses.
We review de novo whether the trial court
correctly interpreted the directions contained
in our remittitur. {Ayyad v. Sprint Spectrum,
L.P. (2012) 210 Cal.App.4th 851, 859.)
Shao contends mainly that the trial court
erred because it refused to conduct an
evidentiary hearing, and she was unable to
cross-examine Wang. However, no such
mandate appears in our 2012 opinion. As
discussed above, our 2012 opinion remanded

APP

73

the case to the trial court for a determination of
Wang’s expenses based on documentary
evidence. That is what the trial court did.
Indeed, it rejected certain expenses alleged by
Wang that it found “Wang failed to properly
document” relating to the children’s medical
and dental insurance premiums. We further
note that, prior to the hearing on the remittitur,
Shao had a meaningful opportunity to respond
to Wang’s declaration and the documents
attached to his declaration, and she filed
several papers including objections and a
“supplemental” request, which the trial court
considered.
In terms of the amount of expenses ordered by
the trial court, we review this amount for abuse
of discretion. (See In re Marriage ofFurie (2017)
16 Cal.App.5th 816, 825.) Shao does not
meaningfully attack the particular
determinations of the trial court regarding the
expenses at issue or point to any portion of the
record that would support her contention that
the trial court’s finding lacked evidentiary
support. It is not “appropriate for us to comb
the record” on her behalf. {In re Marriage of
FinJd1979) 25 Cal.3d 877, 887-888.) Shao, who

APP

74

is an attorney, has chosen to represent herself;
a self-represented litigant must comply with
the rules of appellate procedure, including by
providing adequate citations to the record.
(.Nwosu, supra, 122 Cal.App.4th at pp.
1246-1247.)
Shao argues generally that the order
“disregarded the fact that the child support was
well below the child support guideline” but does
not cite to the record or any authority for this
contention. Her argument also ignores the trial
court’s findings that this argument was “not
relevant to the matters set for hearing on
December 16, 2013” and it “misstates the record,
as the court has not issued a below guideline
child support order in this action.” In short,
Shao has failed to carry her burden of
establishing “ ‘a clear case’ ” of abuse of
discretion. {Denham, supra, 2 Cal.3d at p. 566.)
We find no error in the trial court’s order.
B. Due Process and Judicial Bias by the Trial
Court
Shao argues that her due process rights were
violated because the trial court had a conflict of
interest and was generally biased against her.
We review de novo her claims related to the

APP

75

trial judge’s impartiality. (See Haworth v.
Superior Court (2010) 50 Cal.4th 372,
385-386.)
It is axiomatic that adverse rulings on the part
of a judge do not demonstrate his or her
partiality or bias. (Dietrich v. Litton Industries,
Inc. (1970) 12 Cal.App.3d 704, 719.) “[A] judge’s
‘rulings against a party—even when
erroneous—do not establish a charge of judicial
bias, especially when they are subject to
review. (.People v. Armstrong (2019) 6 Cal.5th
735, 798.) Moreover, “the due process clause
should not be routinely invoked as a ground for
judicial disqualification. Rather, it is the
exceptional case presenting extreme facts
where a due process violation will be found.”
(.People v. Freeman (2010) 47 Cal.4th 993,
1005.) “Potential bias and prejudice must
clearly be established by an objective standard.”
(.People v. Chatman (2006) 38 Cal.4th 344,
363.)
Shao does not cite any legal authority
supporting the proposition that the trial court
violated her due process rights. By failing to
present argument grounded in any legal
authority, Shao has waived any due process
> 5?

APP

76

challenge. (Cahill v. San Diego Gas & Electric
Co. (2011) 194 Cal.App.4th 939, 956.) Shao also
does not cite any record evidence that supports
her assertions of improper conduct by the trial
court. (Cal. Rules of Court, rule 8.204(a)(1)(C).)
Nor does Shao address evidence in the record
that undermines her argument. As noted above,
she had previously sought to disqualify the
trial court based on similar grounds, and a
neutral judge selected by the Judicial Council
denied her request for disqualification.
Moreover, we have reviewed the entire record,
including the reporter’s transcripts from the
December 16, 2013 hearing during which
substantive issues relating to the remittitur
were addressed and conclude they do not
support her attacks on the trial court’s fairness
and impartiality. There is no evidence the trial
court had any association that would create an
apparent or actual bias in this proceeding, and
the record reflects that the trial court acted
appropriately and with patience toward the
parties.
For similar reasons, we reject Shao’s request to
change the venue of this matter from the Santa
Clara County Superior Court. Shao has not

APP

77

cited any relevant authority for this request,
and we therefore do not consider it further.
(.Dabney v. Dabney (2002) 104 Cal.App.4th 379,
384.)
We conclude Shao has not met her burden of
demonstrating judicial misconduct or bias by
the trial court that warrants reversal of its
order or a change of venue.
C. Due Process in this Appeal
Shao contends that this court violated her due
process rights and engaged in misconduct by
“knowingly refusing] to allow material records
on appeal to be given to Appellant, denying
Appellant’s motion to require the trial court to
supplement records on appeal, and further
denying augumenting [sid the records on
appeal, trying to dismiss this appeal at least
twice with false notices, in conspiracy with the
lower court.”
We find no merit to her claims that she has
been denied a full and fair opportunity to
litigate her appeal. Shao’s appeal, although
initially dismissed, was reinstated, and this
court provided Shao multiple extensions to
complete her opening brief. With respect to
Shao’s request to augment the record, she

APP

78

alleges there are three “essential” trial court
records that were improperly excluded from the
record, namely a notice of a case management
conference from 2012 and her own “[ojbjection”
and “[olpposition” to the Wang declaration filed
prior to the hearing on the remittitur.
The proper route for a civil litigant, where the
record is incomplete, is to bring a motion to
augment the record and attach the documents
to the motion. (Cal. Rules of Court, rule
8.155(a)(2)).5 Instead, as noted above, Shao
5 Rule 8.155(a) of the California Rules of Court
states, “(l) At any time, on motion of a party or
its own motion, the reviewing court may order
the record augmented to include^ [fl (A) Any
document filed or lodged in the case in superior
court; or [^j] (B) A certified transcript—or
agreed or settled statement—of oral
proceedings not designated under rule 8.130. ‘
Unless the court orders otherwise, the
appellant is responsible for the cost of any
additional transcript the court may order under
this subdivision. [^[] (2) A party must attach to
its motion a copy, if available, of any document
or transcript that it wants added to the record.
The pages of the attachments must be

APP

79

filed initially a motion “to [ajugment the
records pursuant to Rule 8.155(b)(2).”
California Rules of Court, rule 8.155(b)(2) deals
with “omissions” from a record previously
designated, and it does not provide a basis for a
motion to augment.6 There is no indication
consecutively numbered, beginning with the
number one. If the reviewing court grants the
motion it may augment the record with the
copy. [^|] (3) If the party cannot attach a copy of
the matter to be added, the party must identify
it as required under rules 8.122 and 8.130.”
(Cal. Rules of Court, rule 8.155(a)(1)(A) & (B),
(2) & (3).)
6 Rule 8.155(b) provides, “(l) If a clerk or
*
reporter omits a required or designated portion
of the record, a party may serve and file a
notice in superior court specifying the omitted
portion and requesting that it be prepared,
certified, and sent to the reviewing court. The
party must serve a copy of the notice on the
reviewing court, [^f] (2) The clerk or reporter
must comply with a notice under (l) within 10
days after it is filed. If the clerk or reporter fails
to comply, the party may serve and file a
motion to augment under (a), attaching a copy

APP

80

that Shao ever served a letter of omission on
the trial court, as required under rule
8.155(b)(1). Moreover, her subsequent motion
to augment did not attach any available
documents as required for a motion to augment
by rule 8.155(a)(2). Even assuming for the sake
of argument that Shao complied with all the
procedural rules for her appeal, Shao cites no
authority for the proposition that her due
process rights were violated by this court’s
denial of her motion to augment the record.
(See Boyle, supra, 137 Cal.App.4th at p. 649.)
Shao also alleges this court has a conflict of
interest, is biased, and is involved in an overall
“conspiracy” with the trial court. Shao relies on
materials included in her “Motion for Judicial
Notice In Support of Appellant’s Opening Brief,”
(some capitalization omitted) which she filed
after her notice of appeal. This document
contains motions and other materials, such as a
declaration from an “expert witness,” that Shao
submitted in support of some of her prior
appeals.

of the notice.” (Cal. Rules of Court, rule
8.155(b)(1) & (2).)

APP

81

With respect to Shao’s motion for judicial
notice, the California Evidence Code provides
that “[t]he reviewing court shall take judicial
notice of (l) each matter properly noticed by the
trial court! and (2) each matter that the trial
court was required to notice under Section 451
or 453.” (Evid. Code, § 459, subd. (a).) The
appellate court has discretion to take judicial
notice of matter specified in Evidence Code
section 452.7 (Evid. Code, § 459, subd. (a).)
7 .«

Judicial notice may be taken of the following
matters to the extent that they are not
embraced within Section 45 1- [^[] (a) The
decisional, constitutional, and statutory law of
any state of the United States and the
resolutions and private acts of the Congress of
the United States and of the Legislature of this
state. [^[] (b) Regulations and legislative
enactments issued by or under the authority of
the United States or any public entity in the
United States, [^f] (c) Official acts of the
legislative, executive, and judicial departments
of the United States and of any state of the
United States. [^[] (d) Records of (l) any court of
this state or (2) any court of record of the
United States or of any state of the United

APP

82

Shao’s request for judicial notice appears to be
based mainly on Evidence Code section 452,
subdivision (d), which grants the court
discretion to take judicial notice of court
records. The California Rules of Court provide
“To obtain judicial notice by a reviewing court
under Evidence Code section 459, a party must
serve and file a separate motion,” which must
state why the matter is relevant to the appeal,
whether it was presented to the trial court,
whether the trial court took judicial notice of
States, [f] (e) Rules of court of (l) any court of
this state or (2) any court of record of the
United States or of any state of the United
States. [^[] (f) The law of an organization of
nations and of foreign nations and public
entities in foreign nations, [f] (g) Facts and
propositions that are of such common
knowledge within the territorial jurisdiction of
the court that they cannot reasonably be the
subject of dispute. [^[] (h) Facts and
propositions that are not reasonably subject to
dispute and are capable of immediate and
accurate determination by resort to sources of
reasonably indisputable accuracy.” (Evid. Code,
§ 452.)

APP

83

the matter, and* if not, why the matter is
subject to judicial notice. (Cal. Rules of Court,
rule 8.252(a)(1) & (2)(A— C.)
The materials attached to Shao’s request
consist of arguments and conclusory
statements she has previously raised in other
appeals. Shao has not shown any reason for her
failure to include these documents in the
designated record, and they are not “of
substantial consequence” to the determination
of this appeal. (Evid. Code, § 459, subd. (c)>‘ see
also Evid. Code, §§ 452, 453.) We therefore
decline to take judicial notice of these
documents.
After a careful review of the record and
arguments made by Shao, we find no violation
by this court of Shao’s due process rights.
III. DISPOSITION
The order is affirmed.
DANNER, J.
WE CONCUR:_______
MIHARA, ACTING P.J.
DUFFY, J.*

